No.

IN THE

SUPREME COURT OF THE UNITED STATES

MELVIN LEE JONES,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.

The petitioner has previously been granted leave to proceed in forma pauperis
in the following courts:

USS. District Court for the Eastern District of Virginia, Case
No. 3:17CR71, by oral order entered October 10, 2017; and

U.S. Court of Appeals for the Fourth Circuit, Case No. 18-
4448, by written order dated June 27, 2018.

Because appellate counsel was appointed pursuant to the Criminal Justice Act
of 1964, 18 U.S.C. ยง 3006A, no affidavit or declaration of the petitioner is attached. See
S. Ct. R. 39.1.
July 31, 2020

Respectfully submitted,

Patrick L. Bryant
Appellate Attorney
Counsel of Record
Joseph S. Camden
Assistant Federal Public Defender
Office of the Federal Public Defender
1650 King Street, Suite 500
Alexandria, VA 22314

(703) 600-0800
Patrick_Bryant@fd.org

   

 
